AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

  POLICING SERVICES GRANTS AWARDED TO 

 THE CITY OF WILMINGTON, NORTH CAROLINA, 

             POLICE DEPARTMENT 



         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


         Audit Report GR-40-13-002 

               December 2012 

      AUDIT OF THE OFFICE OF COMMUNITY ORIENTED

        POLICING SERVICES GRANTS AWARDED TO

       THE CITY OF WILMINGTON, NORTH CAROLINA, 

                  POLICE DEPARTMENT


                        EXECUTIVE SUMMARY


       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) grants awarded to the City of Wilmington, North
Carolina, Police Department. We audited a COPS Hiring Recovery Program
(CHRP) grant to fund 13 entry-level officers for 3 years and a COPS
Technology Program (TECH) grant intended to pinpoint the location of
gunshots in high-crime areas of the city. The police department was
awarded a total of $2,320,809 to implement the grant programs, as shown
in Exhibit I.

 EXHIBIT I: OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

       GRANTS AWARDED TO THE CITY OF WILMINGTON, NORTH

                    CAROLINA, POLICE DEPARTMENT

                       COPS      AWARD       AWARD       AWARD
 GRANT NUMBER
                     PROGRAM START DATE     END DATE    AMOUNT
2009-RK-WX-0568        CHRP     07/01/2009  12/31/2013  $2,005,809
2010-CK-WX-0419        TECH     12/16/2009  09/30/2013    $315,000
             TOTAL:                                    $2,320,809
Source: COPS

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed certain data in the police department’s application
for the CHRP grant and its performance in meeting grant objectives and
overall accomplishments.

       We found differences in the information the police department
submitted to COPS in its CHRP grant application and the information we
obtained to verify the accuracy of the grant application. To select CHRP
grantees, COPS developed a methodology that scored and ranked each
applicant based on key data submitted by the applicant. While it performed
some limited data validity checks, COPS relied heavily on the accuracy of the
data submitted by grant applicants. As a result, we reviewed the application
statistics the police department submitted to COPS. We requested that the
police department provide documentation to support 24 statistical items

                                      i
reported in its CHRP grant application. However, the police department did
not provide supporting documentation for 13 of those statistics. We
compared those 13 statistics to other sources of information we obtained
from the city’s financial audit report and public website, the U.S. Department
of Labor’s Bureau of Labor Statistics, and the U.S. Federal Bureau of
Investigation’s crime statistics. For 10 of those statistics we found
differences between the grant application and the information we obtained.
We found differences in: (1) locally generated revenues for fiscal year
(FY) 2009, (2) general fund balance for FY 2009, (3) percentage reduction in
sworn law enforcement personnel, (4) local area unemployment statistics for
FYs 2008 and 2009, and (5) five types of reported crime incidents for
calendar year 2008. We also assessed the effect of these differences in the
police department’s application data and determined that the differences did
not appear to have affected the suitability of the award. We recommend
that the police department implement procedures to ensure that future grant
applications are supported by complete documentation.

      We also found the police department:

   •	 charged $4,211 in unallowable salaries to the CHRP grant;

   •	 charged $6,190 in unallowable fringe benefits to the CHRP grant; and

   •	 included in its CHRP grant application, $112,684 for police officer sick
      leave and vacation that was already included as part of officer salaries.

      As a result of our findings, we make two dollar-related
recommendations and two recommendations to improve the management of
grants.

     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Wilmington officials and
have included their comments in the report, as applicable.




                                       ii
                               TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

     The Office of Community Oriented Policing Services .................. 1

     American Recovery and Reinvestment Act................................ 1

     COPS Hiring Recovery Program............................................... 2

     COPS Technology Program ..................................................... 2

     The City of Wilmington, North Carolina .................................... 2

     Our Audit Approach............................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 5

     Application Statistics ............................................................. 5

     Internal Control Environment ................................................. 8

     Grant Expenditures ............................................................... 9

     Drawdowns .........................................................................13

     Budget Management and Control ...........................................13

     Reporting............................................................................14

     Compliance with Award Special Conditions ..............................16

     Program Performance and Accomplishments ...........................16

     Retention............................................................................18

     Monitoring of Contractors......................................................18

     Conclusion ..........................................................................18

     Recommendations ...............................................................19


APPENDIX I         - OBJECTIVES, SCOPE, AND METHODOLOGY ..... 20

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.... 22

APPENDIX III- OFFICE OF COMMUNITY ORIENTED              

              POLICING SERVICES’ RESPONSE 

              TO THE DRAFT REPORT................................... 23

APPENDIX IV - THE CITY OF WILMINGTON’S RESPONSE

              TO THE DRAFT REPORT................................... 26

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS          

             NECESSARY TO CLOSE THE REPORT................ 31

                            INTRODUCTION

       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) grants awarded to the Wilmington Police
Department, Wilmington, North Carolina. The grants we audited included a
COPS Hiring Recovery Program (CHRP) grant in the amount of $2,005,809 to
hire and fund 13 entry-level sworn officers for 3 years and a COPS Law
Enforcement Technology (TECH) grant in the amount of $315,000 to install
sensors in high-crime areas of the City of Wilmington to pinpoint and report
on the location of gunshots. The police department was awarded a total of
$2,320,809 to implement the grant programs shown in Exhibit 1.

EXHIBIT 1: OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
   GRANTS AWARDED TO THE WILMINGTON POLICE DEPARTMENT
                      COPS    AWARD      AWARD       AWARD
 GRANT NUMBER
                    PROGRAM START DATE END DATE     AMOUNT
2009-RK-WX-0568       CHRP   07/01/2009 12/31/2013  $2,005,809
2010-CK-WX-0419       TECH   12/16/2009 09/30/2013    $315,000
             TOTAL:                                $2,320,809
Source: COPS

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed the police department’s program performance in
meeting grant objectives and overall accomplishments.

The Office of Community Oriented Policing Services

       Within the DOJ, COPS assists law enforcement agencies in enhancing
public safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. COPS provides funding to state,
local, and tribal law enforcement agencies and other public and private
entities to hire and train community policing professionals, acquire and
deploy cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;


                                      1

(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize reductions in essential services and avoid state
and local tax increases.

       The Recovery Act provided approximately $4 billion to the DOJ in grant
funding to be used to enhance state, local, and tribal law enforcement
efforts. Of these funds, $1 billion was provided to COPS to award as grants
for state, local, and tribal governments to hire or retain police officers.

COPS Hiring Recovery Program

       To distribute the Recovery Act money, COPS established CHRP to hire
and retain career law enforcement officers. CHRP provided 100 percent of
the funding for approved entry-level salaries and benefits (for 3 years) for
newly hired, full-time sworn officer positions, for rehired officers who had
been laid off, or for officers who were scheduled to be laid off on a future
date. COPS received 7,272 applications requesting funding for
approximately 39,000 officer positions. On July 28, 2009, COPS announced
its selection of 1,046 law enforcement agencies as recipients of the $1 billion
CHRP funding to hire, rehire, and retain 4,699 officers. The grants were
competitively awarded based on data submitted by each applicant related to
fiscal and economic conditions, rates of crime, and community policing
activities.

COPS Technology Program

       The purpose of the COPS Technology Program was to provide funding
for the continued development of technologies and automated systems to
assist state, local, and tribal law enforcement agencies investigating,
responding to, and preventing crimes.

The City of Wilmington, North Carolina

      The City of Wilmington is located in southeastern North Carolina and is
bordered by the Cape Fear River to the west and the Atlantic Ocean to the
east. The city was incorporated in 1739, has a population of about 100,000,
and covers an area of about 50 square miles. The Wilmington Police
Department’s approved budget for fiscal year (FY) 2012-2013 is
$24,483,015. At the time of the grant application, the police department’s
budget included funding for 263 sworn officer positions.



                                      2

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the CHRP and technology grants. Unless otherwise
stated in our report, the criteria we audit against are contained in the Grant
Owner’s Manuals and the grant award documents. The Grant Owner’s
Manuals serve as a reference to assist grantee agencies with the
administrative and financial matters associated with the grants. The
manuals were developed by COPS to ensure that all grantees understand
and meet the requirements of the grants. We also considered applicable
Office of Management and Budget and Code of Federal Regulations criteria in
performing our audit. We tested the police department’s:

   •	 CHRP grant application statistics to assess the accuracy of key
      statistical data that the grantee submitted with its CHRP application;

   •	 internal control environment to determine whether the financial
      and accounting system and related internal controls were adequate to
      safeguard grant funds and ensure compliance with the terms and
      conditions of the grants;

   •	 grant expenditures to determine whether expenditures charged to
      the grants were allowable, supported, and accurate;

   •	 drawdowns (requests for grant funding) to determine whether
      requests for reimbursements or advances were adequately supported
      and whether the police department managed grant receipts in
      accordance with federal requirements;

   •	 budget management and control to determine whether the police
      department adhered to the COPS-approved budgets for the
      expenditure of grant funds;

   •	 reporting to determine whether the required periodic Federal
      Financial Reports, Progress Reports, and Recovery Act Reports were
      submitted on time and accurately reflected grant activity;

   •	 compliance with award special conditions to determine whether
      the police department complied with special terms and conditions
      specified in the grant award documents;




                                      3

  •	 program performance and accomplishments to determine
     whether the police department achieved grant objectives, and to
     assess performance and grant accomplishments; and

  •	 monitoring of contractors to determine whether the city adequately
     monitored contractors paid with grant funds.

     For these grants, there were no matching funds, program income,
accountable property items, or monitoring of sub-grantees to be tested.




                                     4

                 FINDINGS AND RECOMMENDATIONS

      The police department did not maintain documentation to
      support 13 of 24 statistics in its CHRP grant application. We
      compared those grant application statistics to documentation we
      obtained from other sources and found 10 differences that did
      not appear to have affected the suitability of the award. In
      addition, the police department made salary and fringe benefit
      payments that exceeded the budgeted amounts approved by
      COPS ($10,401). The police department also included in its
      grant application $112,684 for officer vacation and sick leave
      that was already included as part of officer salary costs.
      Consequently, COPS awarded the police department $112,684 in
      excess grant funds. These conditions and the underlying causes
      are further discussed in the body of the report. As a result of
      our audit, we make two dollar-related recommendations and two
      recommendations to improve the management of grants.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans,
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 1 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.

      During this audit, we requested that the police department provide us
with documentation to support the information it submitted to COPS to
secure the CHRP grant. The police department did not provide

      1
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).



                                           5

documentation to support 13 of 24 statistics in the grant application. We
compared those statistics to other sources of information and found 10
differences between the information the police department submitted in the
CHRP application and the information we obtained from other sources. 2
Specifically, we found differences in the application data regarding
Wilmington’s locally-generated revenues, general fund balance, percentage
reduction in sworn law enforcement personnel, unemployment rates, and
reported crime incidents for calendar year 2008. Exhibit 2 identifies the
differences in the statistics reported in the application and the actual
supported statistics.

    EXHIBIT 2: STATISTICS REPORTED IN THE 2009 CHRP GRANT
                         APPLICATION BY WILMINGTON
          STATISTIC             REPORTED     ACTUAL     DIFFERENCE
Total Jurisdictional Locally
                               $57,558,498 $70,893,703 ($13,335,205)
Generated Revenue, FY 2009
Total Jurisdictional General
                               $13,245,555 $16,398,976 ($3,153,421)
Fund Balance, FY 2009
Reduction in Sworn Law
                                3.6 percent  4 percent      (.4)
Enforcement Personnel
Unemployment Rate, January
                                5.2 percent 5.1 percent       .1
2008
Unemployment Rate, January
                                9.9 percent 9.6 percent       .3
2009
Crime Incidents- Homicide            13         12             1
Crime Incidents- Aggravated
                                    392         398          (6)
Assault
Crime Incidents- Burglary          1,466       1,465           1
Crime Incidents- Larceny           3,383       3,454        (71)
Crime Incidents- Motor
                                    498         528         (30)
Vehicle Theft
Source: Wilmington Police Department 2009 CHRP Grant Application

      According to a Wilmington Budget Analyst, the amounts included in
the CHRP application for locally-generated revenue and general fund balance
for FY 2009 were estimated at the time the application was prepared. The


       2
          The other sources of information we used were: (1) the City of Wilmington’s
financial audit report (for revenues and general fund balance), (2) the City of Wilmington
website (for the reduction in sworn law enforcement personnel), (3) the U.S. Department of
Labor’s Bureau of Labor Statistics (for unemployment rates), and (4) the Federal Bureau of
Investigation (for crime statistics). The statistics the police department reported in the
grant application were different from the statistics reported in these sources of information,
but the differences did not affect the suitability of the award.


                                              6

police department’s Grants Manager could not explain why the police
department underestimated the percent reduction of sworn officers reduced
through furlough.

      We also identified other differences. We found that the January 2008
and 2009 local area unemployment statistics reported in the police
department’s grant application were 0.1 percent and 0.3 percent higher than
the reports we obtained from the Bureau of Labor Statistics, and that local
crime statistics for five crime categories reported for calendar year 2008 did
not match the data we obtained from the Federal Bureau of Investigation’s
Uniform Crime Reports. The police department’s Grants Manager could not
explain the differences in local unemployment statistics. Another police
department official told us that the differences in crime statistics resulted
from a lack of reconciliation of crime data between the City of Wilmington,
the State of North Carolina, and the Federal Bureau of Investigation.

       In our draft audit report, we described the differences between
information in the grant application data and the information we used to
verify the accuracy of the application as “inaccuracies” and recommended
that the police department establish procedures to ensure that future grant
applications are accurate. The police department disagreed with our
recommendation and stated that the grant application statistics were
accurate when it submitted the application and explained that the statistics
used in the application have changed or are from sources other than those
we used to verify the accuracy of the application. We agree that statistics
used in the grant application may change over time. However, the police
department did not provide documentation during the audit, or in response
to the draft report, to demonstrate that the statistics in the grant application
were accurate when submitted. Along with its response to the draft report,
the police department provided documentation for three grant application
statistics, but the information in those documents does not agree with the
information in the grant application.

      Based on the police department’s response to the draft report, we
removed language from the report pertaining to “inaccuracies” and describe
them as “differences” between the grant application and the data we
obtained from other sources. Because the police department did not provide
documentation to support that its grant application statistics were accurate
when submitted, we recommend that the police department implement
procedures to ensure that future grant applications are supported by
complete documentation.

      Because the application information was used to determine the
grantee’s eligibility to receive the grant, we performed a sensitivity analysis


                                       7

on the grant application statistics information using COPS methodology. The
purpose for the sensitivity analysis was to examine whether the differences
in the application data we identified were significant enough to affect the
grantee’s eligibility to receive the grant. We found that the differences
between data in the grant application and the data we obtained did not
affect the suitability of the award. As a result, we do not question the award
of the CHRP grant to the police department.

      Because the data that grantees submit are relied upon to award
substantial grants, we believe it is vital that grantees ensure that the data
and information submitted to awarding agencies is supported by complete
documentation. In this case, the data the police department reported in its
grant application did not significantly affect the suitability of its award.
However, we recommend that the police department establishes procedures
to ensure data in future grant applications is supported by complete
documentation.

Internal Control Environment

       We reviewed the City of Wilmington’s financial management system,
policies and procedures, and Single Audit reports to assess the risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grants. We also interviewed management staff from the organization,
performed payroll and fringe benefit testing, and reviewed financial and
performance reporting activities to further assess the risk.

Single Audit Reports

       According to Office of Management and Budget (OMB) Circular A-133,
an entity expending more than $500,000 in federal funds in a year is
required to perform a Single Audit annually, with the report due no later
than 9 months after the end of the fiscal year. The city’s fiscal year runs
from July 1 through June 30 with the Single Audit report due by March 31 of
the following year. The city’s federal expenditures were $5,053,457 in
FY 2011, which required the city to undergo a Single Audit. We reviewed
the city’s Single Audit reports for FYs 2010 and 2011. Both Single Audits
were timely completed and signed by the independent auditor.

      The FY 2010 Single Audit identified one finding that could affect grant
funds. The city was found to have issued four purchase orders without
approval by an appropriate city official. This finding was carried over into
the FY 2011 Single Audit.




                                      8

       In response to this finding in the FY 2011 report, the city stated that it
had begun to address this issue following the FY 2010 Single Audit by
working to implement an automated approval process and by adding
additional non-automated approval levels. However, the city’s efforts had
been hampered by the implementation of a new city-wide automated system
and by the loss of 50 percent of the city’s purchasing staff. As of August
2011, the purchasing function was fully staffed, and the city’s new purchase
order approval process was implemented on March 19, 2012, and is now
fully operational. In our judgment, the city’s response adequately addressed
the report recommendation. There were no recommendations related
directly to DOJ grant funds.

Financial Management System

      According to the Grant Owner’s Manuals, award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure optimal use of funds. Award recipients
must adequately safeguard funds and assure they are used solely for
authorized purposes.

      While our audit did not assess the city’s overall system of internal
controls, we did review the internal controls of the city’s financial
management system specific to the administration of grant funds during the
periods under review. We determined that the city assigned for each grant a
separate project code, which was used to track and segregate all financial
data within the financial system for each award.

Grant Expenditures

CHRP Grant

       According to the COPS Grant Owner’s Manuals, grants cover 100
percent of the approved entry-level salary and fringe benefits of each newly
hired or rehired full-time sworn career law enforcement officer over a
3-year period. Grant funding is for the entry-level salary and fringe benefits
in effect at the time of the application. Any costs above the approved entry-
level salaries and fringe benefits are the responsibility of the award recipient.

      As of July 13, 2012, Wilmington had drawn down $1,357,858 of the
grant funds for salaries and fringe benefits. We judgmentally selected two
non-consecutive pay periods and tested whether costs charged to the grant
were computed correctly, accurately recorded, and supported by time and



                                       9

attendance records. We also compared officer pay rates and positions to
those in the grant budgets approved by COPS.

      We found that costs charged to the grant were computed correctly,
and supported by time and attendance records. However, the police
department exceeded the approved entry-level salaries and fringe benefits
for some officers, and some fringe benefits charged to the grant were not
accurately reported in the accounting records. Consequently, we expanded
our testing of salaries and fringe benefits to all $1,313,397 charged to the
CHRP grant as of June 1, 2012.

       We found that overall, the police department charged $46,817 less
salaries to the grant than the budgeted amount approved by COPS.
However, 11 officers’ salaries exceeded the allowable budgeted amounts by
$4,211. Exhibit 3 shows the budgeted entry-level salary, actual salary, and
overpayments for these officers.

 EXHIBIT 3: BUDGETED SALARIES VERSUS ACTUAL SALARIES FOR
                 GRANT NUMBER 2009-RK-WX-0568
                       BUDGETED    ACTUAL
       EMPLOYEE                            OVERPAYMENT
                        SALARY     SALARY
  Entry-Level- Year 1
            1            $34,000  $34,815        $815
            2            $34,000  $34,178        $178
            3            $34,000  $34,669        $669
            4            $34,000  $34,666        $666
            5            $34,000  $34,677        $677
            6            $34,000  $34,260        $260
            7            $34,000  $34,107        $107
            8            $34,000  $34,543        $543
            9            $34,000  $34,258        $258
           10            $34,000  $34,005          $5
           13            $34,000  $34,033         $33
  Total Overpayment:                           $4,211
  Source: City of Wilmington Employee Earnings Records

      Salary costs exceeded the grant budget because the police department
paid each COPS officer a salary higher than the entry-level salary approved
by COPS. We question the $4,211 overpayments as unallowable because
those payments exceeded the budgeted amounts approved by COPS. The
budgeted amount, which is the entry-level salary, is the ceiling for payments
under the grant. There were no minimum salaries.




                                         10

       We also tested fringe benefits charged to the grant and found that,
overall, the police department charged $33,746 less fringe benefits to the
grants than the budgeted amounts approved by COPS. However, one
officer’s fringe benefit payments exceeded the budgeted amounts by $6,190.

      Exhibit 4 shows the difference in the budgeted fringe benefits, actual
fringe benefits, and overpayments to the officer.

     EXHIBIT 4: BUDGETED FRINGE BENEFITS VERSUS ACTUAL

   FRINGE BENEFITS PAID FOR GRANT NUMBER 2009-RK-WX-0568

                       BUDGETED    ACTUAL
        EMPLOYEE        FRINGE     FRINGE  OVERPAYMENT
                       BENEFITS 3 BENEFITS
   Entry-Level- Year 1
             2          $13,597   $15,995       $2,398
   Entry-Level- Year 2
             2          $14,005   $16,908       $2,903
   Entry-Level- Year 3
             2           $4,919    $5,808         $889
   Total Overpayment:                          $6,190
  Source: City of Wilmington Employee Earnings Records

      We questioned the $6,190 in excess fringe benefit payments as
unallowable because those costs exceeded the maximum amounts approved
by COPS.

      Fringe benefit costs exceeded the grant budget because the police
department charged the CHRP grant the actual fringe benefits costs it paid
to the officer instead of the budgeted fringe benefit amounts approved by
COPS and the actual fringe benefit costs were higher.

      We asked COPS about the police department’s overpayment of salaries
and fringe benefits and a COPS official told us that these overpayments
could be allowable if: (1) the police department did not exceed the grant
award amount, and (2) it requested and received approval for a budget
modification. At the time of our audit, the police department had not


       3
         Budgeted fringe benefits are prorated for officers who worked less than a full year.
Entry-level fringe benefits approved by COPS for year 1 was $15,919 with an approved 3
percent increase for year 2 ($16,396) and year 3 ($16,888). However, we made
adjustments to the budgeted fringe benefits amount because Wilmington elected not to
charge the CHRP grant for Social Security, Workers’ Compensation, and Unemployment
Insurance fringe benefits, therefore, we reduced the total allowable fringe benefits budget
by those individual fringe benefits amounts.


                                             11

exceeded the grant award but had not requested nor received from COPS a
budget modification for the overpayments.

      When actual salary and fringe benefits exceed the budgeted amounts,
the police department’s ability to compensate its officers hired under the
CHRP grant throughout the entire grant period could be at risk. We
recommend that COPS remedy the $4,211 in salary and $6,190 in fringe
benefit overpayments and ensure the police department revises its
procedures to ensure future salary and fringe benefit costs are charged to
the grant in accordance with the approved budget.

       During our review of the police department’s support for payroll, we
found that two CHRP officer timecards were not dated by either the officer or
their supervisor although both timecards contained electronic signatures.
We consider the two timecards with missing dates immaterial and make no
recommendation.

      During our review of the Final Financial Memorandum approved by
COPS, we found that fringe benefits included sick leave and vacation;
however, sick leave and vacation were already included as part of salary in
the grant budget. A Wilmington Budget Analyst told us it was not the city’s
normal practice to pay their non-COPS officers for sick leave or vacation in
addition to their regular salary. We discussed this with COPS staff who
agreed that vacation and sick leave could be included in the grant budget as
part of salary or fringe benefits, but not both. The police department’s CHRP
application included $1,495 for sick leave for entry-level officers for year 1,
$1,541 for year 2, and $1,587 for year 3. The CHRP application included
$1,308 for vacation for entry-level officers for year 1, $1,348 for year 2, and
$1,389 for year 3. For the 3-year grant period, the police department
overestimated its fringe benefit costs for sick leave and vacation by a total of
$8,668 per officer and $112,684 for the 13 grant-funded officers. We
consider the $112,684 to be funds that could be put to better use and
recommend that COPS deobligate those funds.

Technology Grant

       Under the COPS Technology Grant, the police department was
approved to purchase a gunshot location system. The police department
entered into a 2-year service contract with the vendor to be paid in two
installments. We tested both expenditures and determined that these
expenditures were allowable, properly authorized, supported by complete
and accurate invoices, and accurately recorded in the city’s financial records.
However, the finance department recorded these payments as “other
equipment” in the accounting records when the payments were actually for a


                                      12

service contract over a specified period of time. We determined this error
was isolated and immaterial.

Drawdowns

      COPS requires grantees to minimize the cash-on-hand by requesting
funds based on immediate cash disbursements needs. Grantees may draw
down funds in advance, but the funds must be used within 10 days.

CHRP Grant

      As of July 13, 2012, the police department had drawn down
$1,357,858 from the CHRP grant. Wilmington officials told us that the police
department’s drawdown amounts were made based on expenditures in the
accounting records less adjustments. 4 We found that the police
department’s drawdowns matched allowable grant expenditures recorded in
the accounting records for the grant.

Technology Grant

     The police department made one drawdown for the full amount of the
award. We found that the police department’s drawdown matched grant
expenditures recorded in the accounting records for the grant.

Budget Management and Control

       Criteria established in 28 Code of Federal Regulations (CFR) Section
66.30 addresses budget controls for grantee financial management systems.
According to the CFR, grantees are permitted to make changes to their
approved budgets to meet unanticipated program requirements. However,
whenever the awarding agency’s shares exceeds $100,000, the movement
of funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. The
10-percent rule was applicable to both COPS grants awarded to Wilmington.
While the CHRP grant was still in progress at the time of our audit, the police
department appeared to remain within the approved budget allowance for
each category for this grant. We determined the police department did not
transfer funds among direct cost categories in excess of 10 percent of the
award amount for the technology grant.




      4
        Requests for Grant Number 2009-RK-WX-0568 had been quarterly until July 2011
when the City began requesting reimbursement on a monthly basis.


                                         13

         In addition to remaining within the approved budget allowance, the
police department must ensure it does not supplant local funds with grant
funds. According to the 2009 CHRP Grant Owner’s Manual, CHRP funds
should supplement, not supplant, funds already committed from local
sources. The nonsupplanting requirement means that officers hired after the
start date of the grant must be in addition to those currently budgeted
(funded) from local sources. In addition, grantees must take active and
timely steps to fully fund law enforcement costs already budgeted as well as
fill all locally funded vacancies resulting from attrition over the life of the
grant.

       As allowed by CHRP, the police department originally submitted a
grant application for funds to retain 13 officers who were scheduled to be
laid off. We reviewed the police department’s funded sworn officer strength
for FYs 2008-2009, 2009-2010, 2010-2011, and 2011-2012 to determine if
the police department reduced its funded sworn officer positions as a result
of receiving grant funds. We found that the police department’s funding
strength for sworn officers was reduced by 11 from 263 officers in FY 2008­
2009 and to 252 officers in FY 2009-2010. This reduction was the basis for
the police department’s application for the CHRP grant. The FY 2010-2011
and FY 2011-2012 police department budgets include funds to retain the 252
sworn officer positions. We concluded that the police department did not
violate the non-supplanting requirement.

Reporting

      COPS monitors the status of grant funds and progress towards grant
goals through grantees’ quarterly financial and grant progress reports.
Recipients of COPS CHRP grants must also submit to FederalReporting.gov
quarterly reports on the amount of Recovery Act funds expended and
numbers of jobs created or saved.

Federal Financial Reports

      The financial aspect of COPS grants are monitored through Federal
Financial Reports (FFR). 5 According to the Grant Owner’s Manuals, FFRs
should be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

      5
          Effective October 1, 2009, the SF-425 Federal Financial Report replaced the
SF-269 Financial Status Reports (FSRs). For consistency, we use the term “FFR” throughout
this report when discussing any quarterly financial reports.



                                           14

       We reviewed the last four FFRs for the CHRP grant and the last three
FFRs for the technology grant for accuracy and timeliness. 6 We found that
all seven FFRs were submitted on time. By comparing the amounts reported
in the FFRs to the accounting records, we also reviewed the accuracy of the
FFRs. We found that for all seven reports we tested, the reported
expenditures on the FFRs generally matched the police department’s
accounting records, except that for the technology grant, expenditures
reported on the FFR for the quarter ended June 30, 2011, were $157,500
less than the expenditures recorded in the accounting records. The city
corrected the error on the FFR for the quarter ended December 31, 2011.

Progress Reports

      Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. For CHRP grants, the COPS Grant Owner’s
Manual requires grantees to submit progress reports within 30 days after the
end of the calendar quarter. For the technology grant, the Grant Owner’s
Manual requires Program Progress Reports and a final closeout report as
requested by the COPS office during the life of the grant.

     We reviewed the last eight quarterly progress reports submitted to
COPS for the CHRP grant. We determined that the reports were accurate
and submitted on time. No progress reports were required for the
technology grant.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that will collect all reports. Recipients must enter their data no later
than 10 days after the close of each quarter beginning September 30, 2009.

      As of February 21, 2012, the police department had submitted eight
Recovery Act reports to FederalReporting.gov during the preceding 2
years. We tested all eight reports for timelines and the last four reports for
accuracy. Of the eight reports reviewed for timeliness, one was submitted 3
days late. Of the four reports we reviewed for accuracy, one report was
misstated by $1,000 or 0.1 percent.

      6
        We reviewed three FFRs for the technology grant because only three FFRs were
submitted for that grant.


                                          15

This error was corrected in the next report. According to a Wilmington
Revenue Analyst, this was a typographical error. We concluded that these
errors were immaterial, and that the police department met the Recovery
Act reporting standards.

Compliance with Award Special Conditions

       Award special conditions are included in the terms and conditions for a
grant award and are provided in the accompanying award documentation.
Special conditions may also include special provisions unique to the award.
The CHRP grant contained a special condition requiring that funding should
only be used for payment of approved full-time entry-level sworn officer
salaries and fringe benefits. As discussed in the Grant Expenditures section
of this report, we found that the police department over-charged the grant
for salary and fringe benefits.

Program Performance and Accomplishments

CHRP Grant

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant
objectives. According to COPS, there were two objectives to the
CHRP grant: (1) to increase the capacity of law enforcement agencies to
implement community policing strategies that strengthen partnerships for
safer communities and enhance law enforcement's capacity to prevent,
solve, and control crime through funding additional officers; and (2) to
create and preserve law enforcement officer jobs. Quarterly progress
reports describing how CHRP funding was being used to assist the grantee in
implementing its community policing strategies and detailing hiring and
rehiring efforts were to be the data source for measuring performance.
However, COPS did not require grantees to track statistics to respond to the
performance measure questions in the progress reports. In addition, the
grantee’s community policing capacity implementation rating, identified in
the progress report, would not be used in determining grant compliance.

        Even though COPS did not require a grantee to track statistics to
support its performance, it does require a grantee to be able to describe that
it is initiating or enhancing community policing in accordance with its
community policing plan. The COPS Office defines community policing as a
philosophy that promotes organizational strategies, which support the
systematic use of partnerships and problem-solving techniques, to
proactively address the immediate conditions that give rise to public safety
issues such as crime, social disorder, and fear of crime. According to the


                                      16

2009 CHRP Grant Owner’s Manual, grants must be used to initiate or
enhance community policing activities. All newly hired, additional, or rehired
officers (or an equal number of redeployed veteran officers) funded under
CHRP must engage in community policing activities.

       In its application, the police department noted that the goal and
objective of the CHRP grant was to rehire 13 police officers involved in
geographic-based community policing who would have been laid off because
of fiscal problems.

       Police department officials told us that grant performance is tracked by
community policing activity reports CHRP officers are required to complete
and by one-on-one contact that each COPS officer has with their supervisor.
We reviewed the activity reports and determined that these officers’
activities related to community policing services. We also reviewed multiple
supporting documents regarding the police department’s community policing
activities. We noted a flyer notifying the public about police activities and
news articles about community policing. We interviewed police department
officials, including the police department’s Grant Manager and
Hiring Program Manager. We also reviewed CHRP officer activity reports
and concluded that the police department continues to be involved in the
community policing activities discussed in its CHRP application and appears
to be meeting grant objectives.

       In the police department’s first five quarterly CHRP progress reports
for the period July 2009 through September 2010, COPS requested
information regarding the effect CHRP funding was having on community
policing and the status of hiring actions for the grant-funded officers.
Beginning in the fourth quarter calendar year 2010, COPS only requested
the status of hiring actions and no longer requested information regarding
the effect CHRP funding was having on community policing activities.

Technology Grant

      In the COPS Technology Program Application Guide, a grantee's
performance is measured by increasing the capacity of law enforcement
agencies to implement community policing strategies that strengthen
partnerships for safer communities and enhance law enforcement’s capacity
to prevent, solve, and control crime through funding for personnel,
technology, equipment, and training. No progress reports were required for
the Technology grant. Under the technology grant, the police department
entered into a contract to purchase a subscription for a gunshot location
system for $315,000. The 2-year subscription began on September 30,
2011, and is scheduled to expire on September 29, 2013. The contract


                                      17

includes the strategic placement of 46 sensors throughout a 3 square mile
area of Wilmington known for gun violence and the purchase of 65 licenses
that allow the police department to use the subscription.

      The police department provided us a written assessment of the system
in which they indicated that the system performed well. We also reviewed
the minutes of a city government meeting in which the Police Chief
discussed the system and had very positive comments regarding its
performance. We concluded that the police department was meeting the
grant objective.

Retention

     In its application for CHRP funding, the police department stated that it
planned to use general funds to retain the CHRP-funded officers for a
minimum of 12 months following the conclusion of the grant. We
determined that at the time of its application the police department’s budget
funded 263 sworn officers. At the start of FY 2009-2010, the police
department’s budget reduced the number of funded sworn officers to 252.
The police department began using CHRP funding in January 2010. The
3-year funding period will end in January 2013, which falls within the police
department’s FY 2012-2013. We determined that the City Manager’s
recommended budget for FY 2012-2013 included funding for an additional
13 sworn officers for the police department. The City Council approved this
budget on June 19, 2012. We concluded that the police department met the
CHRP retention requirement.

Monitoring of Contractors

      Under the technology grant, the subscription service provides the
police department with a monthly report with incident data that the police
department uses to evaluate the performance of the subscription service.
We determined that the police department's oversight of the subscription
service appeared adequate. The CHRP grant did not include contractual
work.

Conclusion

      We found that the Wilmington Police Department’s CHRP grant
application contained ten instances of incorrect data, but the incorrect data
would not have changed COPS’ award decision or award amount. The police
department made $10,401 in salary and fringe benefit payments that
exceeded the entry-level rate approved by COPS, and it overestimated its
fringe benefit costs by $112,684. As a result of our audit, we make two


                                     18

dollar-related recommendations and two recommendations to improve the
police department’s management of grants.

Recommendations 7

We recommend that COPS:

   1. Require the police department to establish procedures that ensure
      future grant applications are supported by complete documentation.

   2. Remedy $4,211 in excess salaries and $6,190 in excess fringe benefits
      paid with CHRP grant funds.

   3. Require the police department to implement procedures that ensure
      salary and fringe benefit costs are accurately charged to the CHRP
      grant.

   4. Determine and complete the appropriate remedy for $112,684 in
      excess CHRP grant funds awarded for officer sick leave and vacation
      that were already included as part of the grant funds awarded for
      officer salaries.




      7
          We revised Recommendation Number 1 based on the grantee’s response to the
draft report and Recommendation Number 4 based on COPS response to the draft report.


                                          19

                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of our audit was to determine whether reimbursements
claimed for costs under grant 2009-RK-WX-0568 and grant
2010-CK-WX-0419 were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed grantee program performance in meeting grant
objectives and overall accomplishments. We reviewed activities in the
following areas: (1) application statistics, (2) internal control environment,
(3) expenditures including personnel and fringe benefits, (4) drawdowns,
(5) budget management and control, (6) reporting, (7) compliance with
grant requirements, (8) program performance and accomplishments, and
(9) monitoring of contractors. We determined that matching costs, program
income, and monitoring of subgrantees were not applicable to these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited the COPS Hiring Recovery Program grant
2009-RK-WX-0568 and the COPS Technology Program grant
2010-CK-WX-0419. The grantee had requested a total of $1,672,858 in
grant funding through July 13, 2012.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in laws, regulations, Office of Management
and Budget Circulars, COPS Grant Owner’s Manuals, the OJP Financial Guide,
and special conditions of the awards described in the grant award
documents.

       In conducting our audit, we performed testing in application statistics,
drawdowns, and expenditures including payroll and fringe benefit charges.
In this effort, we employed a judgmental sampling design to obtain broad
exposure to numerous facets of the grants reviewed, such as unique payroll
and fringe benefits adjustments throughout the year. This non-statistical
sample design did not allow projection of the test results to the universe
from which the samples were selected.


                                      20

      In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Progress Reports, and Recovery Act Reports, and
evaluated performance to grant objectives and the grantee’s monitoring of
contractors. However, we did not test the reliability of the police
department’s financial management system as a whole.




                                    21

                                                                       APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS
                   DESCRIPTION                             AMOUNT                  PAGE

Unallowable Costs:

2009-RK-WX-0568:
   Unallowable Salary Costs                                           $4,211         10
   Unallowable Fringe Benefit Costs                                   $6,190         11
   Total Unallowable Costs                                          $10,401

    Total Questioned Costs 8                                        $10,401

Funds To Better Use:

2009-RK-WX-0568:
   Sick leave and vacation already included as
                                                                    $112,684         12
   part of salary
   Total Funds to Better Use 9                                     $112,684

    Total Dollar-Related Findings                                  $123,085




       8
          Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

       9
          Funds to better use are funds that could be used more efficiently if management
took actions to implement and complete an audit recommendation, including deobligation of
funds from programs or operations.




                                            22

                                                                                      APPENDIX III

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES'
          RESPONSE TO THE DRAFT REPORT



              u.s. DEPARTMENT OF JUSTICE
              UFFI C E OF CO MMU N I TY ORI EN TED POLI C I NG SER VICES
              Gra nt Operations D irectorate/Audit Liaison Division
                                                                                        COPS
              145 N Sn eet, N.E., Washingmn, DC 20530


                                       MEMORANDUM


To :            Ferris B . Polk
               Atlanta R egional Audit Manager
               Ollice oflbe Inspector General
                                   ,~&7
From :         Melonie V. Shine~
               Management Analyst

Dale:           October 19,20 12

S ubject:       Response to the Draft Audit Report issued o n September 20, 2012 for the City of
                W ilmington, North Carolina

This memorandum is in respo nse to yo ur S eptembe r 20, 20 12 draft audit re[Xl rt o n COP S H iri ng
Recovery Program (CHRP) G ran t #2009RKWX0568 and Tc.:chnolol..'Y Grant #20 10CKWX04 19.
awarded to the City of W ilmington, No rth Carol ina (Wilrniu2.lo n). For ease of review. each
a udit reco mmendation is stated in bold and underlined. followed by a response from COPS
conce rn ing the recommendation.

Rccommcndution I - Require th e police depurtment to es tabl ish procedures 'hut ("n li urc
future grant IIppticlitions eontuin ueeurutc infurmution.

         COPS conc urs that grantees should ensure Ihal grunt applicatio ns arc s ubm itte d wilh
,,"ccurale infonnatio n .

Plann("d A("tion

        COPS w ill req uest procedures that Wi lmington has established to ensure that future
grant applications contai n acc urate info rma tion.

 Request

         Based on t he pianm!d ac tion, COPS reques ts resolution of R!..'"Commendalion I.

 Recommenda tion 2 - Remedy $ 4,211 in eXce.'Is s alaries lind $ 6 , 190 in excess fringe henelits
 paid with C I-IRP grant funds.

        COPS concurs that g rantees' salary and fringe benellt costs should not exceed t he
 amo unts approved in the gra nt budgets.


 ADVANC I Nli PUBLIC SAFETY T'J}R.OUGH COMMUNITY POLICI N G




                                                     23 

Ferris B. Polk
Atlanta Regional Audit Manager, OIG
October 19, 20 12
Page 2


Planned Action

        COPS will ensure that Wilmington made adjustments to remedy the excess salary and
fringe benefit costs.

Request

       Based on the planned action, COPS requests resoluti on of Recommendation 2.

Recommendation 3 - Require the police department to implement procedures that ensure
salary and fringe benefit costs are accurately charged to the CHRP grant.

       COPS concurs that grantees shou ld implement policies and procedures to adequately
administer grant funding.

Planned Action

       COPS will request documentation from Wilmington to confirm that procedures have
been implemented to ensure that salary and fringe benefit costs are accurately charged to the
grant.

Request

       Based on the planned action, COPS requests resolution of Recommendation 3.

Recommendation 4 - Deobligatc $1 12,684 in CHRP grant funds for officer sick leave and
vacation that were already included as part of officer salaries.

       COPS concurs that grantees should not include officer sick leave and vacation costs
under both the salary and the fringe benefit budget categories.

Planned Actions

        COPS will request further explanation of the circumstances from Wilmington. CO PS
will determine the appropriate action to remedy this recommendation after discussing the issue
with Wilmington.

 Request

        Based on the planned actions, COPS requests resolution of Recommendation 4.




                                              24

Ferris B. Polk
Atlanta Regional Audit Manager, 0 10
October 19.2012
Page 3


         COPS considers Recommendations I through 4 resolved, based on the planned actions
shown above. In addition, COPS requests written acceptance of the deternlination from your
office.
         COPS would like to thank you for the opportunity to review and respond 10 Ihe draft
:ludi! report. If ynu have any questions, piea<;e contact me at 202·010-8124 or vi:! e·m:!il .


cc:    Louise M. Duhamel , Ph.D. (copy provided electronically)
       Justice Management Division

       Mary T. Myers (copy provided electronically)
       Justice Management Division

       Marcia O. Samuels.Campbell (copy provided electronically)
       Grant Operations Directorate

       Orant Files: #2009RKWX0568 (C HRP)
                    #201 OCK WX0419 (Technology)

       A udit File


ORI: NC06S02




                                           25

                                                                                    APPENDIX IV

           THE CITY OF WILMINGTON’S RESPONSE
                  TO THE DRAFT REPORT


                                                                            Wilmington Pollee Department




                                                             •
                                                                            Acting Chief of Police
                                                                            Marshall W:'liamson
                                                                            61 5 Sess Stre<tl
                                                                            POBox 1810
                                                                            Wilmington. NC 28402. 1810

                                                                            910343-3610
                                                                            9103-43-3636 fax.
                                                                            www.wilmingtonne.gov
                                                                            0;111 711TTYNoIee




October 17,2012




Me. Ferris B. Polk
Regional Audit Manager
Office of the Inspector General
U. S. Department of Justice
7S Spring Street, Suite 1130
Atlanta, Georgia 30303

Dear Mr. Polk,

RE: Draft Audit Report response - City of Wilmington, N C
      2009-RK-WX-0568 and 2010-CK-WX-0419


RECOMMENDATIONS

I. Require the police department to establish proce dures that ensure future grant
applications contain accurate infonnation.

DISAGREE

For each of the 10 statistics that were listed as mistaken in the draft audit report, we stand
by the fact that they were all accurate at the date of submission of the grant application.

The total jurisdictional locally generated revenue, FY 2009 and total jurisdictional
general fund balance, FY 2009 had to be projected figures with it being submitted in a
grant application that was d rafted during the ongoing budget year.

The reduction in sworn law enforccment personnel figures submitted in the grant
application were accurate as of the date of grant submission. The drafting of the grant
a nd weekly budget meetings occurred during this same period. The number of officer
positions $heduled for reduction changed several times. The City offered employees an
early re tirement program to eliminate officer positions. The grant was submitted just




                                                 26

 prior to the end of the actual budget year. On the date of grant submission, the
 infonnation was accurate. The subsequent addition of an actual reduction of one position
 would be in favor of an increased award and prima fac ie evidence that accurate
 infonnation was subm itted as of the date of grant submission.

 Both the January, 2008 and January, 2009 unemployment rales were submitted. in the
 grant application as accurate. Unemployment nwnbers are revised over time as more
 accurate information becomes available. The numbers arc fluid . The U. S. Bureau of
 Labor Statistics cites the reasons for revisions in docwnents attached to the City of
 Wilmington's response letter. Tbe most recent revision is listed as version (H).

All six listed crime statistics as inaccurate in the audit draft report were in ftlct submitted
without error.

The audit cites FBI Sla l lStlCS as the source of "actual" nwnbers. It is important to
remember that the grant instructions did not direct the applicant agency to submit FBI
crime statistics. Using the FBI nwnbers would have been impossible as they were not
published for several months after the grant submission in late October or early
November.

    Exhibit 2: Statistics Reported in the 2009 CHRP GRANT




The below explanation should add insight into why these differences occurred.

Law enforcement agencies submit statistics to the FBI which reflect UCR statistical
reporting requirements. These numbers are submitted for the Wilmington Police
Department (WPD) via the State Bureau of Investigation (SBI). These numbers are
gathered on a monthly basis and submitted at the beginning of the next month - usually in
electronic format after a small grace period to reflect last minute changes and corrections.
These statistics are maintained and submitted by the records section using the current
Records Management Software (RMS) Pistol 2000. At the end of the calendar year, all
statistics are frozen at the SBI and forwarded to thc FBI for each agency. These numbers
are then compHed into the FBI's C rime In t he United S ta t es publication. The stati:."tical
year for the SBI and FBI is then closed as far as these agencies are concerned. The FBI
publication is the source for the "ACTUAL" column. A mirror of these slats can be




                                              27

 obtained from the SBI website: http://www.ncdoj.gov/CrimeNiew-Ctime-Statistics.aspx.
 You will notice from this website there are slight differences even between the SBI
 numbers and FBI numbers, i.e. 527 motor vehicle thefts and 3,455 larcenies.

 WPD does not close a calendar year. Our "books" remain open from a statistical
standpoint - forever. This point carmot be overstated enough from Wilmington Police
Department 's perspective. For example, if we havc a robbery reported in December, and
subsequently through investigations discover that this crime did not occur, then this crime
will be removed from the statistical category of robbery for the calendar year just ended.
The records management system (RMS) for WPD docs not have an end or year closing
procedure. Attached is the report used to answer the question: How many Part I UCR
Crimes occurred in year 20087 From this report you will notice the year 2008 calendar
numbers have changed further. Again, the fluid nature of crime stats is never ending. In
the below table, the "Reported" co lumn would be my answers submitted for WPD
internal stats if asked this question today as of September 24, 2012.




Tbe report shows there were 14 homicides in calendar year 2008.
What is obvious here are the two additional homicides. This is one more homicide in
addition to the 13 submitted with the COPS application grant. The list of homicide cases
for calendar year 2008 is also attached. You will notice that two of these cases have two
victims. The point here is that something was changed since submission of our
application to increase our homicide figure by + 1 for a total of 14. These numbers will
never be changed by the SBI or FBI for 2008 because these agencies have closed this
calendar and are only accurate at this one moment in time. However, obvious reasons
come to mind for these additional homicides. A death investigation on the preliminary
reports could possibly have still been under investigation and its later determined that a
wrongful death occurred. This determination could have occurred after the grace pt:riod
for submission after the year ended.

The remai nders of these differences were mainly due to unfounded case clearances -
cases determined not to have occurred. On pages 24-25, in North Carolina Incident­
Ba..,ed Reporting Data Collection Guidelines. it clearly states under the category Case
Disposition Codes: 1 Unfounded (reported crime did not occur). If a crime did not occur,
the crime statistic should be removed from the appropriate category. 1he key to
remember is that we will continue to investigate and change 2008 crimes for sometime




                                           28

after the end-of-the-year. We have a cold case squad for the purpose of making arrests
and investigating cases going back to the 1970's for some homicide cases. Other victims
of crime will be charged with filing a fa1se police report and the case unfounded. The
records section could make a status change which could move a crime from one category
to another based on the investigator findings .

The application instructions did not state that only the FBI submitted UCR Part I
numbers for calendar 2008 were to be used. Therefore, the internal numbers were used
because they would have reflected any changes to the crime categories.

The numbers reported in the COPS application reflect investigations or administrative
findings (DA or Medical Examiner) that could have led to additional charges into certain
categories such as homicide. Also some cases were unfounded which determined these
c:rimes did not occur thereby subtracting thcse charges. The open book policy of \\!PO
will continue to reflect changes to prior year cases. These numbers may yet change again
if a cold case is solved or new information is reported to the police such as Il victim filing
a fwse police report, a suicide becoming a hotrticide, etc. These differences will continue
to occur regardless of the recommendation in the audit report because of nature and
timing of crimina] statistics and crime reporting.


2. Remedy 54,211 in excess salaries and $6,190 in excess fringe benefits paid with
CHRP grant funds.

AGREE

The City completed an extensive review of this project from inception through March
2012. Interim adjustments were made in January 201 2 but the final adjustments were
completed with the March 2012 draw request. We compared the allowable charges
versus the amounts drawn. During the review, we discovered errors towing $9,477.66 in
salaries and ($618.82) in fringe benefits. This resulted in a net reduction of $8,857.84.
lbe March 2012 Draw Request should have been $61 ,465.98 however, we requested
$52.607.14. The excess salaries identified above were included in the March 2012 draw
request and no further adjustments will be made.

The City will make the appropriate adjustment for the excess fringe benefits of$6, 190 in
the October 2012 reconciliation and draw request.


3. Rcquire the Police Department to implement procedures that ensure salary and fringe
benefit costs arc accurately charged to the CHRP grant.

DISAGREE

The Finance Department is responsible for all fi nancial activ.ities rela.ted to grants. The
current process for grant management has historicwly proven 10 be quite successful in




                                              29

ensuring that grant funds are recorded correctly. Unfortunately. with the multiple
turnovers in the grant management staff, minor discrepancies occurred when recording
the required adjustments. The Finance Department is committed to ensuring that all
CHRP funds are expended appropriately and in accordance with the established budget.
An additional review will be implemented to guarantee this effort.


4. Deobligatc $112,684 in CHRP grant funds for officer sick leave and vacation that
were already included as part of officer salaries.

DISAGREE

For Vacation Leave accruals, we do not agree with this recommendation. We do agree
that if the employees use all accrued leave during the grant period, the vacation accrual
funds would be included in the budgeted officer salaries. Unfortunately, this is not
reality. Employees do not exhaust all accruals which creates a liability. The City agrees
and supports the recommendation for Sick Leave accruals since there is no liability in the
event of separation of service during the grant period. As of the date of this response, we
have realized two personnel turnover events which required a mandatory payment of
163.80 hours or $2,550 (plus bcncfiw). R ecently, we learned that another CHRP position
will be vacated before the funding period expires. These employees were hired
spccifically for the grant(s) and did not transition from other full-time benefit cligible
positions. The liability for the vacation accruals accwnulated solely during the grant
period and should be an eligible grant funded expenditure when the termination occurs
duri.ng this said period. We are not recommending that the CHRP program fully fund the
liability at the conclusion of the funding period. only when terminations occur during the
aetive grant.




Respectfully su bmitted,

"lI\~~...j~~
Marshall Williamson
Acting Police C hief
City of Wilmington, NC




                                           30

                                                             APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft audit report to COPS and the Wilmington
Police Department. The COPS response is incorporated in Appendix III and
the Wilmington Police Department’s response is incorporated in Appendix IV.
The following provides the OIG analysis of the responses and summary of
actions necessary to close the report.

Analysis of the Wilmington Police Department Response

       In response to our audit report, the city disagreed with
Recommendations 1 and 3, and partially disagreed with Recommendations 2
and 4. The city also provided documentation for three grant application
statistics that are not included in its response as presented in Appendix IV.
Below we discuss specific responses to each of our recommendations and
the actions necessary to resolve or close those recommendations.

  1. Resolved.	 COPS concurred with our recommendation that the
     Wilmington Police Department establish procedures that ensure future
     grant applications contain accurate information. COPS stated that it is
     working with the grantee to develop policies and procedures related to
     ensure that future grant applications contain accurate information.

     The police department disagreed with our recommendation and stated
     that the information was accurate on the date it submitted the grant
     application. However, the police department did not provide
     documentation during the audit or in response to the draft report to
     demonstrate that its grant application statistics were accurate when
     submitted. The police department’s response also explained that the
     data submitted in the grant application has since changed or was from
     sources other than the sources we used to verify the accuracy of the
     application. Along with its response, the police department provided
     attachments to support three of the grant application statistics.
     However, the information in those documents did not agree with the
     information in the grant application.

     Based on the police department’s response, we edited report language
     pertaining to “inaccuracies” and describe “differences” between the
     grant application and the documentation we obtained to verify the
     accuracy of the grant application. Because the police department did


                                     31

  not provide documentation during the audit or in response to the draft
  report that its grant application statistics were accurate when
  submitted, we also revised our audit recommendation. We
  recommend that the police department implement procedures to
  ensure that future grant applications are supported by complete
  documentation.

  This recommendation is resolved based on COPS agreement with it
  and can be closed when we review procedures that ensure the city’s
  future grant applications are supported by complete documentation.

2. Resolved.	 COPS concurred with our recommendation that it remedy
   $4,211 in excess salaries and $6,190 in excess fringe benefits paid
   with CHRP grant funds and stated it is working with the grantee to
   make adjustments to remedy the excess costs.

  The police department partially agreed with our recommendation and
  stated that it would reduce a future drawdown by $6,190 for the
  excess fringe benefits, but it had already reduced its March 2012
  drawdown by $8,857.84, which the police department believed
  included the $4,211 in excess salaries. The $4,211 in excess salaries
  we identified during the audit are part of the year 1 grant costs.

  We reviewed the accounting records provided to us during the audit
  and found that the March 2012 drawdown adjustment of $8,858.84,
  (not $8,857.84 as the police department stated in response to the
  draft report), was comprised of 10 separate accounting adjustments
  shown below. Our analysis of each adjustment is explained in the
  Auditor’s Comment column.

               Adjustments to the Police Department’s

              March 2012 Grant Fund Drawdown Request

                                     Grant Year
         Adjustment    Grantee’s                  Grantee’s Reason      Auditor’s
                                     Adjustment
          Amount         Note                      for Adjustment       Comment
                                       Applied
                                                  Correct fringe     This adjustment is
                       3rd Quarter                benefit            for fringe
    1      ($192.11)                     1
                           2010                   miscalculation     benefits, not
                                                  (Retirement)       salaries.
                                                  Correct fringe     This adjustment is
                       4th Quarter                benefit            for fringe
    2      ($639.20)                     1
                           2010                   miscalculation     benefits, not
                                                  (Retirement)       salaries.




                                      32

                                                 Added total hours    This adjustment is
                                                 worked,              for fringe benefits
                                                 subtracting          (Medicare), not
                                                 allowable hours,     salaries.
                      1st Quarter                Recalculating
  3     ($1,214.14)                       1
                          2011                   Medicare based
                                                 on allowable
                                                 hours not
                                                 allowable
                                                 Medicare wages
                                                                      No explanation
                      2nd Quarter
  4     ($2,463.10)                       1      Blank                for this
                         2011
                                                                      adjustment
                                                                      This adjustment
                                                                      applies to grant
                      3rd Quarter                                     year 2. The
  5     ($2,144.82)                       2      Blank
                          2011                                        $4,211 excess
                                                                      salaries occurred
                                                                      in grant year 1.
                                                                      This adjustment
                                                                      applies to grant
                                                                      year 2. The
                      4th Quarter
  6     ($1,755.66)                       2      Blank                $4,211 excess
                          2011
                                                                      salaries occurred
                                                                      in grant year 1.

                                                                      This adjustment is
                       st                                             for an increase,
                      1 Quarter
  7       $4,211.58                       2      Blank                not a decrease, in
                        2012
                                                                      the drawdown
                                                                      amount.
                                                                      This adjustment is
                                                                      for an increase,
                      2nd Quarter
  8       $4,716.29                       2      Blank                not a decrease, in
                         2012
                                                                      the drawdown
                                                                      amount.
                                                                      This adjustment
                                                                      applies to grant
                      3rd Quarter                Prior quarter        year 3. The
  9     ($8,927.86)                       3
                          2012                   adjustments          $4,211 excess
                                                                      salaries occurred
                                                                      in grant year 1.
                                                                      The purpose of
                        Billing                  Billing difference
 10       ($449.82)                       1                           this adjustment is
                      Difference                 period June 2010
                                                                      not clear.
      ($8,858.84)     Net reduction in grant fund drawdown
Source: Auditor Analysis of City of Wilmington’s accounting records

Based on our analysis of these adjustments, the city has not
demonstrated that a $8,858.84 reduction in its March 2012 drawdown
included $4,211 for excess salaries charged to the CHRP grant. The


                                     33
  $4,211.58 adjustment shown in the table above represents an

  increase in the drawdown amount.


  The status of this recommendation is resolved based on COPS’
  agreement with it and can be closed when the $4,211 in excess
  salaries and $6,190 in excess fringe benefits have been remedied.

3. Resolved. COPS concurred with our recommendation and stated that
                	
   it is working with the police department to develop written procedures
   that ensure salary and fringe benefit costs are accurately charged to
   the grant.

  The police department disagreed with our recommendation and stated
  that its current process for grant management has historically proven
  to be “quite successful in ensuring grant funds are recorded correctly.”
  The city attributed these discrepancies to multiple turnovers in grant
  management staff. Based on the police department’s explanation,
  either its current process was not followed or it did not have a process
  for checking the work of new or less experienced grant management
  staff.

  This recommendation is resolved based on COPS agreement with it
  and can be closed when we review procedures that ensure salary and
  benefit costs are accurately charged to the grant.

4. Resolved. COPS concurred with our recommendation to deobligate
                 	
   $112,684 in CHRP grant funds for officer sick leave ($60,099) and
   vacation ($52,585) that were already included as part of officer
   salaries in the grant application. COPS stated that grantees should not
   include officer sick leave and vacation costs under both salary and the
   fringe benefit budget categories and would request further explanation
   of the circumstances and determine the appropriate action to remedy
   the recommendation after discussing the issue with the grantee.

  The police department agreed with the portion of the recommendation
  pertaining to deobligating funds awarded for sick leave ($60,099), but
  disagreed that COPS should deobligate funds awarded for vacation
  ($52,585). The police department stated that deobligating grant funds
  awarded for vacation would eliminate grant funds needed to pay for
  vacation costs accrued during the grant period that may not be paid
  until the officer separates. To support this position, the police
  department stated that it had two police officer “turnover events”
  requiring it to make mandatory payments totaling $2,550 plus benefits
  for accrued vacation and that more such payments were expected.


                                  34

We disagree with the police department’s argument. If an officer took
no vacation during their period of employment and was paid for their
accrued vacation upon separation, total payments for salary and
vacation could exceed the maximum allowable salary costs because we
consider vacation as part of the costs for the period of employment.

For example, if an officer with a maximum allowable entry-level salary
of $34,000 including vacation, worked 1 year without taking vacation
and then separated, vacation would add about another $1,308 to that
officer’s total costs for that year. The $1,308 would exceed the
$34,000 maximum allowable annual amount approved in the budget or
the officer’s actual salary if it is less than the approved amount. We
consider payments for accrued vacation costs as part of the costs for
the period in which they were earned.

This recommendation is resolved based on COPS agreement with it
and can be closed when COPS determines and completes the
appropriate remedy for $112,684 in excess CHRP grant funds awarded
for officer sick leave and vacation that were already included as part of
the grant funds awarded for officer salaries.




                                35

